State of New Mexico's Administration of the
Fire Management Assistance Grant Program
            for the Atrisco Fire
                                                                                Office of Inspector General
                                                                                Ojjice of Emergency Management Oversight

                                                                                U.S. Department of Homeland Security
                                                                                300 Frank H Ogawa Plaza, Ste. 275
                                                                                Oakland, CA 94612




                                                                ;8;)
                                                                '¡'~l'I'J) Hom~land
                                                                           ,~i-§' Seenri ty


                                               September 26, 2008

                                                       Preface

The U.S. Department of 
  Homeland Security (DHS) Office oflnspector General (OIG) was
established by the Homeland Security Act of2002 (Public Law 107-296) established by amendment
to the Inspector General Act of 1978. This is one of a series of audits, inspections, and special
reports published as part of our DHS oversight responsibilities to promote economy, effectiveness,
and efficiency within the depaiiment.

The attached report presents the results of      the audit of  New Mexico's administration of
                                                                 the State of

the Fire Management Assistance Grant Program for the Atrisco Fire. We contracted with the
independent public accounting firm of 
       Williams, Adley & Company, LLP to perfonn the audit. The
contract required that Wiliams, Adley & Company, LLP perform its audit according to generally
acceptedgovemmcnt auditing standards, and guidance from the Robert T Stafford Disaster Relief
and Emergency Assistance Act, Title 44 of       the Code of 
 Fedeml Regulations, and the Office of
Management and Budget. Williams, Adley & Company, LLP reported two areas in which the State
of  New Mexico's administration of        the FMAG Program could be improved. The report contains
three recommendations addressed to the Regional Administrator, Federal Emergency Management
Agency, Region VI.

Williams, Adley & Company, LLP is responsible for the attached auditor's report dated August 29,
2008, and the conclusions expressed in the report. During the audit, the recommendations herein
were discussed with those responsible for implementation but a tormal exit conference was not held
due to ongoing disaster activity in the State of 
          New Mexico. It is our hope that this report will result
in more effective, efficient, and economical operations. We express our appreciation to all of those
\'/ho contributed to the preparation of            this report.



                                                                Q ò('CA-f- A ~l¿;¡~e l"

                                                                Robeii J. fJtrico

                                                                W cstem Regional Director

..~~~.~?:~',.::~~~~l.~~l;~'



August 29, 2008

Western Regional Director

Office of Emergency Management Oversight

Office of Inspector General

U.S. Department of 
           Homeland Security
300 Frank H. Ogawa Plaza, Suite 275
Oakland, California 94612




Williams, Adley & Company, LLP performed an audit of             New Mexico's management of
                                                                                         the State of 


the Federal Emergency Management Agency's funds awarded under the Fire Management
Assistance Grant Program. The audit was performed in accordance with our Task Order TPD-ARC­
BP A-07-0014 dated September 27,2007.



This rep0l1 presents the results of the audit and includes recommendations to help improve the

management of the audi ted Fire Management Assistance Grant Program.


Our audit was conducted in accordance with applicable Government Auditing Standards, July 2007
revision. Although the uudit report comments on costs claimed by the State of 
 New Mexico, we did
not perform a financial audit, the purpose of 
 which would be to render an opinion on the State of
New Mexico's financial statements or the funds claimed in the Financial Status Reports submitted to
the Federal Emergency Management Agency.

We appreciate the oppOliunity to have conducted this audit. Should you have any questions, or if          we
can be of further assistance, please call me on (202) 371- 1397.

Sincerely,

\Villimns, Adley & Company, LLP

~~-iÚ 0u~
Charbet Duckett

                             --

Partner





1250 H Streel, NW, Su!le 1150 . Washington_ DC 20005 . (202) 371-1397 . Fax (202) 371-9161
                                                                                                                                                                      tJ


Table of Contents/Abbreviations                                                                                                                                       11
                                                                                                                                                                      r~
                                                                                                                                                                      ¡




Executive Summary. .......... ............ ..... ............... ........ .... ............. .......... .... ...... ..................... ............... I


Background.... ............. .... .................. ....... ........... .......... ............... ....... ............. ........... ................. ........ 2


Results of Audit............. ..... ................................. ................................................................. ............... 3

                                                                                                                                                                      !
           SuppOliing Documentation for Grant Costs...................... ............... ..................... .................... 3                                ¡
           Timelines for Submitting Project Worksheets . ........ ..................... ....... ................. .... ............... 5

Appendices
                                                                                                                                                                      ; ,
                                                                                                                                                                      , ,

           Appendix A: Objectives, Scope, and Methodology.................................................. ......... ...... 7


Abbreviations

           CFR                               Code of 
     Federal Regulations
           DHS                               U.S. Department of       Homeland Security

           FEMA                              Federal Emergency Managcment Agency

           FMAG Program                      Fire Management Assistance Grant Program

           GAR                               Governor's Authorized Representative

           OIG                               Office of Inspector General

           PW                                Project Worksheet

           OEM                               Office of 
 Emergency Management

           OMB                               Offce of 
     Management and Budgct
Executive Summary
                   Williams, Adley & Company, LLP audited the State of 
          New Mexico's (state)
                   administration of the Fire Management Assistance Grant (FMAG) Program
                   for the Atrisco Fire (FMAG Declaration 2472). The objective of        the audit was
                   to determine whether the state administered the FMAG Program in an
                   ettcient and effective manner. To accomplish the objective, we considered
                   the overall impact of material deficiencies identified during the audit on grant
                   program administration. Specifically, we determined how well the state
                   (1) coordinated and communicated with the Federal Emergency Management
                   Agency (FEMA) and subgrant applicants, (2) ensured compliance with federal
                   laws and FEMA guidelines, and (3) accounted for and expended FMAG
                   Program funds. See Appendix A for additional details on the objective, scope,
                   and methodology of this audit.

                   FEMA Region VI awarded $1,749,610 under the FMAG Declaration 2472 to                      ~- ,

                   the New Mexico Office of 
               Emergency Management (OEM) on June 25, 2003.
                   FEMA programmatically closed this declaration on August 24, 2005.
                   Although the audit scope included a review of            the costs rcimbursed under the
                   grant, a financial audit of those costs was not performed. Accordingly, we do
                   not express an opinion on the state's financial statements or the funds claimed
                   in the financial status reports submitted to FEMA.

                   OEM administered the FMAG Program effectively and effciently but did not
                   always comply with federal laws and FEMA guidelines. Specifically, the
                   state (I) requested and FEMA Region VI paid $815,795 in unsupported costs,
                   and (2) submitted an extension request that FEMA approved for 6 months
                   greater than the regulations allow.

                  We recommend that the Regional Administrator, FEMA Region VI
                  (1) disallow the $815,795 federal share of 
 unsupported costs, (2) require OEM
                  to comply with federal regulations and other federal guidelines regarding the
                  supporting documentation needed when claiming FMAG costs, and
                  (3) require OEM to establish firm deadlines for subgrantees to submit project
                  worksheet information in order for OEM to comply with federal regulations
                  regarding the submission of project worksheets to FEMA.

                  During the audit, the recommendations herein werc discussed with thosc
                  responsible for implementation but a fonnal exit conference was not held due
                  to ongoing disaster activity in the State of 
 New Mexico. Therefore, written or
                  verbal comments were not obtained.




      State of J\ew Mexico's Administration of the Fire Management Assisiance Grant Program

                                         for the Atrisco Fire


                                                         Page i
                                                                                                        ~1



                                                                                                        ¡,j


                                                                                                        f'
                                                                                                        ,,1
                                                                                                        ~:
                                                                                                        i. ;
                                                                                                        "
                                                                                                        I:
, Background
                                                                                           I::!
                                                                                                        r:
                                                                                                        ¡::
                    The Robert T. Stafford Disaster Relief and Emergency Assistance Act,                ~~
                                                                                                        ,
                    (Stafford Act), signed into law November 23, 1988, authorizes the President         , '
                                                                                                        ,,
                    to provide federal funds to state and local governments under the FMAG              ¡ .;
                                                                                                        i!
                                                                                                        !. ;
                    Program for mitigation, management, and control of any fire burning on public
                    or private forestland or grassland. The FMAG Program replaced the Fire
                    Suppression Assistance Program on October 30, 2001. Title 44, Code of
                    Federal Regulations (CFR), Part 204 provides the procedures for the
                    declaration and grants management processes for the FMAG Program and
                    details applicant eligibility and the eligibility of costs to be considered under
                    the program.

                    Declaration Process



                    A declaration request must be submitted while a fire is burning uncontrolled
                    and threatens such destruction as would constitute a major disaster. The
                    Governor or the Governor's Authorized Representative (GAR) is authorized to
                    submit requests to the FEMA Regional Administrator or Regional Fire Duty
                    Liaison for firc managcment declarations. Due to the magnitudc and impact
                    of a fire, the Governor or GAR can expedite the declaration process by
                    verbally requesting the declaration but must follow-up promptly after the date
                    of an initial telephone request with all official forms and written information.

                   Upon declaration approval decision by FEMA, the Governor or GAR will
                   entcr into a standing FEMA/State Agreement (Agreement) for the declared
                   fire and for future declared fires in that calendar year. The state must have a
                   current and signed Agreement before receiving federal funding under the
                   FMAG Program. The Agreement specifies the understandings, commitments,
                   and conditions under which FEMA will provide federal assistance, including
                   the 75% federal and 25% non-federal cost share provision and articles of
                   agreement necessary for the administration of the grants. Thc Agreement must
                   identi fy the state legislative authority for firefighting, as well as the state's
                   compliance with the laws, regulations, and other provisions applicable to the
                   FMAG Program.

                    Grant Application Process



                   Following a declaration, the state submits a grant application package for a
                   grant to the FEMA Regional Administrator. The state should submit its grant
                   application within 9 months of the declaration. The Regional Administrator
                   may grant an extension of up to 3 months upon recei pt of a written request
                   from the state that includes justitication for an extension. The grantee must
                   document thc total eligible costs for a declared tìre on Project W orkshects

       State of New Mexico's Administration of the Fire lVlanagement Assistance Grant Program
                                        fOl the Atrisco Fire

                                               Page 2

                                                                                                           "

                                                                                                           I',:;


                                                                                                           ,:!
                                                                                                             -!
                                                                                                           1:.:.'


                                                                                                           11
                                                                                                           ,'
                                                                                                           (:!
                   (PWs), which are submitted with the grant application. The Regional                     : :
                                                                                                           í:
                   Administrator has 45 days from the receipt of the state's initial grant                 ii
                                                                                                           I!
                   application, or an amendment to the state's grant application, to approve or            .1
                                                                                                           I!
                   deny the application package or amendment or to notify the state of a delay.

                   By submitting the PWs, the grantee ceiiifies that all reported costs were               Ii
                   incurred for work that was performed in compliance with laws, federal
                   regulations, and FMAG Program policy and guidance, as well as the terms
                   and conditions outlined for the administration of 
 the grant in the FMAG
                   Program FEMAlState Agreement. Upon approval of 
               the grant application,
                                                                                                           I!
                   FEMA obligates funds after detennining that: (l) the state's eligible costs
                   meet or exceed the individual or cumulative fire cost thresholds; and (2) the
                   state has up-to-date State Administrative and Hazard Mitigation Plans                   I

                   approved by the Regional Administrator.
                                                                                                           ¡i


                   Subgrantee requests for FMAG Program funding are submitted on a Request                 t
                   for Fire Management Assistance Subgrant (FEMA Form 90-133) to the
                   grantee according to state procedures and within timelines set by the grantee.
                   This request must be submitted no later than 30 days after the close of the
                   incident pcriod. Thc grantee wil review and forward the rcqucst to the
                   Regional Administrator for final review and determination.


Results of Audit
                   OEM generally administered the FMAG Program for the Atrisco Fire in an
                   efficient and effective manner. OEM properly coordinated and communicated
                   with FEMA and subgrant applicants, and properly accounted for and
                   maintained adequate docun'ientation of expenditures made with the tollowing
                   exceptions.

     Supporting Documentation for Grant Costs
                   OEM lacked sufficicnt suppoiiing documentation for four of the seven
                   subgrantees we reviewed because it did not require the sub 

                                                                                grantees to provide
                   suppOliing documents with their requests for reimbursement. Because a
                   significant amount of 
 the costs rcimbursed to subgrantces could not be
                   verified due to the lack of supporting documentation such as invoices and
                   payroll records, we could not substantiate the nature, extent, allocability,
                   allowability, and reasonableness of all expenditures. Consequently, we
                   question $815,795 that represents the federal share of costs claimed by OEM.




       State of New Mexico's Administration of ihe Fire Management Assistance Granl Program
                                                 for the Atrisco Fire

                                                         Page 3

                           The New Mexico State Administrative Plan for the FMAG Programl requires
                           sub   grantees to keep complete records of all work (receipts, checks, job orders,
                           contracts, equipment usage documentation, payroll information, etc.) funded
                           under the Public Assistance program for 3 years from the date final payment
                           was received. During this period, all project worksheets are subject to state
                           and federal audit or review. The last payment was received on June 25,2005.
                           In addition, 44 CFR 13.20 provides that all allowable cost must be properly
                           accounted for with supporting documentation and Office of 
               Management and
                           Budget (OMB) Circular A-87, Cost Principles 

                                                                                       for State, Local, and Indian
                           Tribal Governments, Attachment A, C. Basic Guidelines, j., requires that to be
                           allowable under federal awards, costs must be adequately supported.

                           A Joint Powers Agreement between the State of      New Mexico and the U.S.
                           Forest Service did not require the U.S. Forest Service to provide the state with
                           supporting documentation. However, both the FMAG grant agreement and
                           the Joint Powers Agreement required retention of 
  the supporting
                           documentation according to the Administrative Plan. Despite these
                           requirements, most U.S. Forest Serve expenditure documents were no longcr
                          available clue to the U.S. Forest Service's less restrictive records retention
                          policy.

                                           the Joint Powers Agreement, 44 CFR 204.3 requires that PWs
                           Irrespective of 


                          identify actual costs incurred by eligible applicants as a result oftìrefighting
                          activities. In addition, section 204.53 says that by submitting an applicant's
                          PW, the grantee is ceiiifying that all costs reported were incurred for \Nork
                          that was perfonned according to FEMA laws, regulations, policy and
                          guidance applicable to the FMAG Program. Without supporting
                          documentation, the grantee cannot be certain that all costs repOlied by thc
                          sub   grantees were incurred.

                 Recommendations
                          We recommend that the Regional Administrator, FEMA Region VI:

                          Recommendation #1. Disallow the $8 I 5, 795 federal share of unsupported
                          costs.

                          Recommendation #2. Require OEM to comply with 44 CFR and OMB
                          criteria regarding the supporting documentation needed when claiming FMAG
                          costs.



i Section VI-Direction and Control, P,irt D-Records & Reports. !i4-Docullcntation.

            State of New :\Jexico's Administraiion of the Fire Management Assistance Grant Program
                                                        for the Atrisco Fire

                                                                Page 4

       Management Comments

               During the audit, the above recommendations were discussed with those
               responsible for implementation but a formal exit conference was not held due
               to ongoing disaster activity in the State of  New Mexico. Formal comments to
               this report will be solicited after report issuance.

Timelines For Submitting Project Worksheets

               OEM should have enforced the PW submission guidelines for its subgrantees
               and FEMA Region VI should have required OEM to submit the PWs within
               the regulatory timeframes. Because these guidelines and timelines were not
               enforced or required, FEMA did not receive accurate cost information in a
               timely manner and grant closeout was delayed due to the late submission of
               the PW from the grantee.

               According to 44 CFR 204.52(c)(2) and (3), the grantee will determine the
               deadline for an applicant (i.e., subgrantees) to submit completed PWs, but the
               deadline must be no later than 6 months from close of 
  the incident peiiod. At
               the request of the grantee, the Regional Administrator may grant an extension
               of up to 3 months when such request is sufficiently justified by the grantee.

               The incident period ended July 6, 2003 making the original deadline for the
               submission of PW s January 6, 2004. However, due to biling delays
               encountered by one subgrantee, the New Mexico Energy, Minerals, and
               Natural Resources Department, the state submitted, and FEMA approved, two
               extension requests each for 6 additional months rather than the a one-time
               3 month extension allowed by federal regulations. Based on the regulations,
               the PW should have been submitted no later than April 6, 2004 (assumes an
               approved 3-month extension) but with the two approved extensions, the
               submission deadline became December 24,2004. While the New Mexico
               Energy, Minerals, and Natural Resources Depaiiment was given until
               December 2004 to submit its PW, it submitted the final PW on September 2,
               2004, 14 months after the end of 
 the incident period and 8 months later than
               allowed for by the regulations.

       Recommendation
               We recommend that the Regional Administrator, FEMA Region VI:

               Recommendation #3. Require OEM to establish TÌlm deadlines for
               suhgr3ntees to submit project worksheet information in order for OEM to


  State of New Mexico's Administration of the Fire J\:lanagtJll'nt i\ssistance Grant Program
                                     for the Atrisco Fire

                                           Page 5

                                                                                            t

             comply with federal regulations regarding the submission of     the PWs to
             FEMA.
     Management Comments

            Although audit results and conclusions and were discussed during the audit,
            we were unable to obtain written and verbal comments at the conclusion of
            the audit due to ongoing disaster activity in the State of New Mexico. Formal
            comments to this report will be solicited after report issuance.




State of New Mexico's Administration of the Fin' Management Assistance Grant Program
                                          for the Atrisco Fire

                                                  Page 6

Appendix A
Objectives, Scope & Methodology


                         Objective

                         The objective of   the audit was to determine whether the state administered the.
                         FMAG Program in an efficient and effective manner. To accomplish the
                         objective, we 
 considered the overall impact of matei1al deficiencies identified
                         during the audit on grant program administration. Specifically, we determined
                         how well the state (1) coordinated and communicated with FEMA and subgrant
                         applicants, (2) ensured compliance with federal laws and FEMA guidelines,
                         and (3) accounted for and expended FMAG Program funds.

                         We were not engaged to and did not perfonn a financial statement audit, the
                         objective of which would be to express an opinion on specified elements,
                         accounts, or items. Accordingly, wc wcrc ncithcr rcquired to nor cxpressed an
                         opinion on the costs claimed for the grant programs included in the scope of
                         the audit. Had we been required and perfonned additional procedures or
                         conducted an audit of 
 the financial statements according to generally accepted
                         auditing standards, other matters might have come to our attention that would
                         have been reported. This repOli relates only to the programs specified and
                         does not extend to any financial statements of the state.

                         Scope

                         We audited the Atrisco Fire (FMAG Declaration 2472) that was awarded by
                         FEMA to the state on June 25, 2003. The grant totaling $ i ,749,61 0 was
                         programmatically closed on August 24, 2005.2 This FEMA grant award,
                         which was administered by FEMA Region VI, was selected for review because
                         the award was significantly higher than other fire declarations within the same
                         FEMA Region. OEM administered the FMAG Program.

                         Methodology

                         We perfonned fieldwork at FEMA Region VI, New Mexico Offce of
                         Emergency Management, the Bernalillo County Sheriff 
                  Department, City of
                         Albuquerque, New Mexico Department of 
               Public Safety, and New Mexico
                         Energy, Minerals, and Natural Resources Department. To obtain an
                         understanding of the grant procedures, we reviewed FEMA regulations; the
                         Stafford Act, as amended; pertinent sections of           Title 44 of 
  the CFR, and the
                         OMB Circular A-87, COS! Princzplesjòr State, Local and Indian Tribal
                         Governments.


2 fMAG programs are considered programmatically closed if all work has been completed and final costs submitted to
FEMJ\ have been obligated.

            State of Ne,,' Mexico's Administration of the Fire Management Assistance Grant Program
                                                for the Atrisro Fire

                                                      Page 7

                                                                                                        ,.
                                                                                                        ;:1
                                                                                                        ~~
                                                                                                        r~
                                                                                                        ¡,
A ppendix A                                                                                             i:-',
                                                                                                        "
                                                                                                        I':
Objectives, Scope & Methodology                                                                         l:1
                                                                                                        r:
                                                                                                        ~~l




                     To achieve the objective of this audit, we:

                     1) Interviewed FEMA, statc, and sub 
  grantee personnel to obtain an
                          understanding of policies and procedures followed and to identify
                          potential internal control weaknesses and their causes;

                     2) Reviewed grant files to determine whether sufficient documentation was
                         present to suppOli proper administration of the grant;

                     3) Reviewed the state's internal controls over accounting for grants to ensure
                          that the state properly recorded and reported grant expenditures;

                     4) Reviewed a statistical sample of project worksheets to determine whether
                         grant monics were spent according to laws and regulations. We used
                         appropriate foimulas to develop a variable sampling approach coupled
                         with the risk model promulgated by the American Institute of Certified
                         Public Accountants.

                     5) Reviewed prior audit repOlis to determine whether deficiencies had been
                         noted in the repoiis with respect to the state's administration of the FMA G
                          Program or internal controls over grant fund accounting.

                     We conducted a perfOlmance audit by executing tests, conducting interviews,
                     making observations and examining documentation in the following areas:

                     i. Applicant Eligibility

                     2. Cost Eligibility

                     3. Procurement

                     4. Grantee's Accounting System and Internal Controls

                     5. Project Worksheet Review

                     6. Grant Reporting


                     We conducted our work between Novcmber 2007 and March 2008 and
                     performed our work according to the Government Auditing Standards
                     prescribed by the Comptroller General of 
 the United States (July 2007
                     Revision).




        State of New J\Jexico's Administration of the Fire Management Assistance Grant Program
                                           for the Atrisco Fire

                                                             Page 8

Additional Information and Copies


                              this report, ca11 the Office oflnspector General (OIG) at
To obtain additional copies of 



(202) 254-4 199, fax your request to (202) 254-4305, or visit the OlG weh site at
www.dhs.gov/oig.


OIG Hotlne


To report al1eged fraud, waste, abuse or mismanagement, or any other kinù of CTiminul
or noncriminal misconduct relative to department programs or operations:

      · Call our Hotline at 1-800-323-8603;

      · Fax the complaint directly to us at (202) 254-4292,
      · Email us at DHSOIGHOTLINEØlùhs.gov: or

      · 'Write to us at:

             DHS Oaice of Inspector General/MAIL STOP 2600, Attention:

                Office ofInvestigations - Hotline, 245 Murray Drive, SW, Building 410,
                Washington, DC 20528.

The OIG seeks to protect the identity of each writer and caller.
